HHS/OIG, Audit - "Review of Expenses and Revenues Presented in
Congressional Testimony by East Jefferson General Hospital," (A-06-08-00009)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Expenses and Revenues Presented in Congressional Testimony by East Jefferson
General Hospital," (A-06-08-00009)
June 3, 2008
Complete
Text of Report is available in PDF format (686 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
East Jefferson General Hospitals (the hospital) expenses
for the first 5 months of 2005 and the first 5 months of 2007 presented in its
congressional testimony were generally accurate and supported by its financial
records.  However, the hospitals revenue as described in the testimony for the
first 5 months of 2007 did not include $4 million in a Medicare Wage
Stabilization grant it received during this period.  The Louisiana Hospital
Association removed this amount when compiling the testimony data and referenced
the grant amount in an explanatory note.
We conducted this review at the request of the House Committee on Energy and
Commerce, before which the hospital testified at a hearing on August 1, 2007.
The hospital agreed with the results of our review.  This was an informational
report, and we had no recommendations.